         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Progress in Implementing the
Advanced Batteries and Hybrid
Components Program under the
American Recovery and
Reinvestment Act




OAS-RA-L-10-04                         April 2010
DOE F 1325.8
     (4/93)




United States Government                                                             Department of Energy

memorandum
       DATE:   April 27, 2010                                    Audit Report Number: OAS-RA-L-10-04
REPLY TO
  ATTN TO:     IG-32 (A10RA025)
 SUBJECT:      Report on "Progress in Implementing the Advanced Batteries and Hybrid Components Program
               under the American Recovery and Reinvestment Act"
         TO:   Deputy Assistant Secretary, Energy Efficiency and Renewable Energy

               INTRODUCTION AND OBJECTIVE

               The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted to
               stimulate the U.S. economy, create jobs and make infrastructure investments in energy and
               other areas. The Department of Energy's (Department) Advanced Battery and Hybrid
               Components Program (Program) received almost $2 billion to support the construction of U.S.
               based manufacturing plants to produce batteries and electric drive components. While the
               Department had funded some vehicle battery research in the past, this Program adds a new
               manufacturing component that the Department must administer. The Program is managed by
               the Office of Energy Efficiency and Renewable Energy's (EERE) Vehicle Technologies
               Program and is being implemented and monitored primarily by the National Energy
               Technology Laboratory (NETL). As of March 17, 2010, NETL had made 20 grant awards
               from the 30 selections made from its Advanced Batteries and Hybrid Components Funding
               Announcement. The 20 awards represent almost $1.7 billion of the planned $2 billion allotted
               to the Program.

               As noted in our Special Report on the American Recovery and Reinvestment Act at the
               Department of Energy (OAS-RA-09-01, March 2009), the Department's grant-making authority
               is critical to achieving the desired Recovery Act-related economic stimulus. In that report, we
               suggested that the Department take steps to develop aggressive safeguards to ensure that
               performance is monitored throughout the life-cycle of the grants. Because of the importance of
               this Program to stimulate the economy, create jobs and establish a U.S. capability to
               manufacture transportation batteries, we initiated this audit to evaluate the Department's
               progress in soliciting, reviewing, awarding and administering the grants.

               CONCLUSIONS AND OBSERVATIONS

               Our audit revealed that the Department had made significant progress in implementing the
               Advanced Battery and Hybrid Components Program. Specifically, the Department had:

                       Issued a Funding Opportunity Announcement that included defined selection criteria
                       and established a grantee selection process that incorporated review of all aspects of
                       applicant proposals;
          Awarded funding to 20 grantees, obligating 85 percent of the available Recovery Act
          funding for projects such as construction of factories that will build lithium-ion
          batteries for hybrid and electric vehicles and facilities that will produce materials and
          components to supply battery manufacturers; and,

          Established conditions on the use of funds awarded until such time as grantees can
          demonstrate, for example, that they have completed environmental reviews.

During our audit, nothing came to our attention to indicate that the Department had not followed
its predetermined award process and selection criteria. Finally, the Department developed a
comprehensive monitoring program plan that, if successfully implemented should reduce the
financial, technical, and marketing risks associated with the projects. The following information
discusses the Department's progress to date in implementing the program.

                                  Solicitation and Merit Review

The Department followed its established process for soliciting and reviewing applications for
grants under the Advanced Battery and Hybrid Components Program. Specifically, on March 19,
2009, shortly after the Recovery Act was passed, the Department issued a detailed Funding
Opportunity Notice that included defined areas of interest and selection criteria. As part of the
application process, the Department required recipients to submit detailed project management
plans, comprehensive budgets, and other descriptive planning documents.

The Department used merit review panels comprised of Government officials; peer review panels
comprised of private sector experts in advanced batteries, construction, manufacturing, and
finance; and, a National Environmental Policy Act (NEPA) compliance review team to evaluate
the 119 applications received in response to the Funding Opportunity Announcement. The merit
review panels defined the technical specifications that had to be met by all successful applicants.
The peer review panels reviewed all aspects of proposed projects, including battery technology,
construction and manufacturing plans. The NEPA team evaluated significant environmental
considerations. All reviews were completed by July 2009.

Additionally, Department officials required revisions to application materials and met in person
with company representatives during site visits to gain a complete understanding of the details of
the proposed projects. Further, NETL project officers conducted independent risk assessments of
individual projects. Further, as discussed below, the Department established conditions as part of
the awards in response to projects that were considered at greater risk for encountering
difficulties.

Most applications meeting the required specifications were awarded funding. Awards were not
made to applications that did not meet the minimum technical standards established by the merit
review panels, lacked needed private funding to support the project, or other considerations such
as the applicant's participation in another funded project.




                                                 2
                                      Awards and Conditions

As of March 2010, the Department had determined that it would fund 30 projects and had made
20 grant awards. As previously mentioned, the 20 awards represent almost $1.7 billion of the
planned $2 billion for the Program. The remaining 10 projects selected were in various stages of
negotiation and were anticipated to be awarded by April 30, 2010. Further, as of March 2010,
the Department had reimbursed grantees about $36 million for their incurred costs, exceeding its
performance measure of expending $20 million by March 31, 2010. Because many of these
projects are large construction efforts that have required environmental assessments, the
Department anticipates funding to be expended primarily in Fiscal Years 2011 and 2012. These
grants required cost sharing, with almost every grantee matching the Government's investment in
these manufacturing plants through an at least 50 percent cost share.

As part of the award process and to protect the Government's interest, the Department established
conditions on all but three of the awards to address risks identified during the application review
process. For example, in order to mitigate the risks associated with the time it takes to address
environmental requirements, the Department limited the expenditure of grant funds until required
environmental assessments had been completed for any proposed manufacturing plant. To
mitigate the risks associated with inadequate financial controls, the Department also required
recipients to obtain a satisfactory audit from the Defense Contract Audit Agency as to the
adequacy of their accounting systems. We reviewed the audit findings, comparing them to award
conditions, and found that the conditions appropriately reflected the results of the audits. The
conditions, if diligently enforced throughout the life-cycle of the grant, should help to ensure that
the tax payers' investment in the funded projects is protected.

                                            Monitoring

The Department had developed a comprehensive monitoring program to oversee funded projects.
Specifically, NETL, which will be responsible for monitoring, planned to have project officers
conduct monthly status calls and quarterly on-site visits to each manufacturing plant in addition
to reviewing quarterly technical progress reports. Officials informed us that project officers had
been assigned to the Program and that existing staff resources were adequate to meet planned
monitoring requirements. Additionally, Department officials told us that they will be able to
closely monitor project costs since the grants had been awarded on a cost reimbursement basis,
rather than advancement of funds basis. We noted that, although recipients had submitted a
limited number of invoices as of the time of our review, NETL had required line-item support for
all costs, and refused to reimburse recipients until the desired details had been submitted.

Path Forward

The Department had made significant progress in making grant awards for the Advanced Battery
and Hybrid Components Program. It also had established conditions as part of the awards and
designed a monitoring program to mitigate risks associated with the program. Success of these
measures, however, will depend on the effectiveness of their enforcement and implementation.


                                                 3
In the past, we have observed that the Department had not always enforced conditions placed on
financial assistance awards and had not effectively monitored project performance. Specifically,
in our report on Management of Fossil Energy Cooperative Agreements, (DOE/IG-0692, July
2005), we concluded that NETL had not always adequately monitored its research project
financial assistance awards. For example, NETL had not always enforced certain conditions,
such as annual cost certifications or funding limitations, originally imposed on some awards to
protect the Government's interest. Another report on Selected Energy Efficiency and Renewable
Energy Projects, (DOE/IG-0689, May 2005), disclosed that project managers had not always
made site visits and that EERE had not resolved serious accounting and solvency issues in two
cases. Although management had taken action to address the recommendations contained in
these reports, continued vigilance is necessary to avoid the same or similar problems with this
grant program.

Since recommendations are not being made in this report, a formal response is not required. We
appreciate the cooperation of your staff during the conduct of our audit.




                                            Joanne Hill
                                            Director, Energy Audits Division
                                            Office of Inspector General

Attachment

cc:   Assistant Secretary, Energy Efficiency and Renewable Energy
      Team Leader, Audit Liaison Team, CF-80
      Audit Resolution Specialist, Office of Risk Management, CF-80
      Team Leader, Energy Efficiency and Renewable Energy
      Audit Liaison, National Energy Technology Laboratory




                                               4
                                                                                    Attachment


SCOPE AND METHODOLOGY

This review was performed between November 2009 and April 2010 at the Department of
Energy's (Department) National Energy Technology Laboratory in Pittsburgh, Pennsylvania
and Morgantown, West Virginia; and the Department's Headquarters in Washington, D.C.

To accomplish the objective, we:

         Obtained and reviewed relevant laws and regulations related to implementation of the
         American Recovery and Reinvestment Act of 2009 and grants administration;

         Reviewed programmatic and planning documents such as the Funding Opportunity
         Announcement and Program Operating Plans;

         Obtained access to the Department's Strategic Integrated Procurement Enterprise
         System and reviewed individual grant award files; and,

         Interviewed Project Officers and Contract Specialists for all grants made under the
         Department's Advanced Battery and Hybrid Components Program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We also assessed performance measures in accordance with the
Government Performance and Results Act of 1993 and determined that performance measures
were established for the Advanced Batteries and Hybrid Components Program. We conducted
an assessment of computer processed data relevant to our audit objective and found it to be
reliable.

An exit conference was held with Department officials on April 23, 2010.




                                              5
                                                               IG Report No. OAS-RA-L-10-04

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
